No. 20-

 

IN THE
SUPREME COURT OF THE UNITED STATES

 

JAMES MICHAEL HOOD,
Petitioner,
vs.
UNITED STATES OF AMERICA,

Respondent.

 

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

 

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

 

Petitioner, James Michael Hood, moves this Court for leave to proceed in forma
pauperis. In the lower courts, he was found indigent and allowed to proceed in forma
pauperis and was appointed counsel under the Criminal Justice Act, 18 U.S.C.

ยง 3006A.

<

NNIFER-NILES COFFIN
Assistant Federal Defender
Federal Defender Services

of Eastern Tennessee, Inc.
800 South Gay Street, Suite 2400

Knoxville, Tennessee 37929
August 26, 2020 (865) 637-7979
